TN

@OCKLE

* E-Mail Address:
Le ga 1 Bri efs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1201

CLAY BRIGHT, COMMISSIONER OF TENNESSEE
DEPARTMENT OF TRANSPORTATION,
Petitioner, .
v.
WILLIAM HAROLD THOMAS, JR.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 6806 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

| Kens. 0. Loos Qutiarh Ql

Notary Public Affiant 39793

My Comm. Exp. September &, 2023

 

 
